No. 19A

IN THE

antpreme Court of tbe littiteb ii)tate
CLYDE S. BOVAT,
Applicant,
v.
STATE OF VERMONT,
Respondent.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Neal Kumar Katyal, a
member of the Bar of this Court, hereby certify that on February 26, 2020, a copy of
the foregoing was served by e-mail and United States mail, postage prepaid to the
following:
David E. Tartter, Esq.
Deputy State's Attorney
Department of State's Attorneys & Sheriff
110 State Street
Montpelier VT 05633-6401
david.tartter@vermont.gov
Counsel for Respondent
I further certify that all parties required to be served have been served.

Date: February 26, 2020
Neal Kumar Katyal

